No. 20-245
CERTIFICATE OF SERVICE
PATRICIA NELSON, Next friend of N.K., a minor, Petitioner
v.
ESTEBAN RIVERA, Respondent.
Pursuant to Rule 29 of this Court, I hereby certify that I am a member
in good standing of the bar of this Court and that on this 8th day of
January, 2021, the Petition for a Writ of Certiorari in the abovecaptioned case was served electronically, as permitted by the Supreme
court’s April 15, 2020 Order, on the following, who has consented to
electronic service:
Jill Humphreys Steele
City Attorney’s Office
10 N. Division Street Ste. 207
Battle Creek, MI 49014
jhsteele@battlecreekmi.gov
/s/ Christopher J. Trainor
Attorney for Petitioner

